HHS/OIG, Audit -"Review Of Medicaid Drug Rebate Collections Commonwealth Of Massachusetts As Of June 30, 2002,"(A-01-04-00005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicaid Drug Rebate Collections Commonwealth of Massachusetts As Of June 30, 2002," (A-01-04-00005)
August 12, 2004
Complete Text of Report is available in PDF format (729 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the State agency had established adequate accountability and internal
controls over the Medicaid drug rebate program.  For State fiscal year 2002, we found that the State agency did not
establish accounting procedures and internal controls to monitor the collection of interest due from manufacturers and
to reconcile and age drug rebate balances on the Form CMS 64.9R report.  As a result, information contained on the
quarterly Form CMS 64.9Rs during our audit period was not always accurate.  We recommended that the State agency establish
policies and procedures for reconciling and aging its pending drug rebate amounts on the Form CMS 64.9R and for the proper
monitoring and collection of interest due from manufacturers.  The State agency agreed with our recommendations.